IN THE SUPREME COURT OF THE UNITED STATES
WANDA TUBBS,
Petitioner
v.
JEFF LONG, as Commissioner
of the Tennessee Department of Safety and Homeland Security
Respondent
CERTIFICATE OF SERVICE
I, Paul Andrew Justice III, counsel for the Petitioner, certify that on this 16th
day of February 2021, I have caused a copy of the Petition for Certiorari, Appendix,
In Forma Pauperis Application, and Certificate of Service to be served via U.S.
Mail, Priority, on the following counsel:
Miranda Jones
Assistant Attorney General
500 Martin L. King Jr. Blvd
Nashville, TN 37243
(615) 532-1600
Miranda.Jones@ag.tn.gov

Attorney for Respondent
Commissioner Jeff Long
I further certify that I have also delivered an electronic copy to counsel on
this date via email, and that all parties required to be served have been served.
Paul Andrew Justice III
Attorney for the Plaintiffs
1902 Cypress Drive
Murfreesboro, TN 37130
(615) 419-4994
drew@justicelawoffice.com

